No. 20-5764

In the Supreme Court of the United States
RODNEY BERRYMAN, SR., Petitioner,
v.
ROBERT K. WONG, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition contains 4,453 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: December 23, 2020
Respectfully submitted,
XAVIER BECERRA
Attorney General of California

s/ Brian R. Means
BRIAN R. MEANS
Deputy Attorney General
Counsel of Record
Counsel for Respondent

